                             CLOSEOUT FOR M-98010002


        On 22 January 1998, we received an allegation1that the subject2plagiarized text from
another PI'S award3into his own NSF proposal. Our review of the allegation showed that the
subject had apparently copied over 90 percent of the text from the other PI'S NSF award into two
separate NSF proposals he submitted to NSF within about 2 months of each other to different
programs.4 The subject had not distinguished the copied text or provided any authorship credit to
other PI. Our inquiry determined that the allegation of plagiarism had substance. We referred the
investigation to the university.'

        We reviewed the University's investigation report and determined that it was fair,
accurate, and complete. Our investigation report and the NSF Acting Deputy Director's 29
September 1999 letter reflecting his decision constitute the closeout for this case.

cc: Integrity, IG




                                          Page 1 or I   .,
                       NATIONAL S C l E N C t POUNUH I I U I -
                           4201 WILSON BOULEVARD
                          ARLINGTON, VIRGINIA 22230



                                           October 4 , 1999


   OmCE OF ME
  DEPUTY DIRECTOR

 CERTIFIED MAIL --RETURN RECEIPT REOUESTED




 Re:   Notice of Misconduct in Science Determination
 Dear Dr.   0
The National Science Foundation has reviewed the investigation
report prepared by                              hat evaluated
allegations that you committed scientific misconduct. The
university investigation concluded that you plagiarized text from
an NSF-funded proposal authored by-in           two proposals
that you submitted to NSF in 1997. As discussed below, NSF
accepts the findings of the University's investigation report and
concludes that you committed misconduct in science.
                                                                 -__--------7


The University investigated the allegations of plagiarism and
found ou used substantial amounts of verbatim text from
d       proposal, in your NSF proposals, without attribution.
The University found that your failure to use quotation marks, or
their equivalent, to indicate verbatim text from
proposal, was plagiarism and a serious deviation from accepte
practices. The University concluded that you acted recklessly,
and that you conmjtted research risconduct.
                                                                 a
I concur with the findings contained in the University's report.
I have determined that you committed plagiarism, and hence,
misconduct in science, under NSF1s regulations. See 45 CFR
S689.1 (a).
In light of the significant actions taken by the University, I
conclude that issuance of this letter of reprimand is the
appropriate action and that no additional actions are necessary
to protect the Federal Government. However, I would like to
emphasize that failure to provide appropriate attribution to
another author's work in an NSF proposal severely undercuts the
ability of NSF staff and reviewers to evaluate the PI1s expertise
and familiarity with the field. It is extremely important not to
mislead reviewers into believing that someone else's work is your
own. I trust that you will provide proper attribution to source
/documents in the future, and that this isolated error in judgment
 will be an anomaly in your otherwise distinguished career.
Under NSF1s regulations, you have 30 days after receipt of this
letter to submit an appeal of this decision, in writing, to the
Director of the Foundation. 45 CFR §689.9(a). Any appeal should
be addressed to the Director at the National Science Foundation,
4201 Wilson Boulevard, Arlington, Virginia 22230. For your
information w e are attaching a copy of the applicable
regulations. If you have an questions about the foregoing,
please call Lawrence Rudolph, General Counsel, at (703) 306-1060.




                                  Joseph Bordogna
                                  Deputy Director

Enclosures (2)
Investigative Report
NSF'S misconduct in science regulations
                           CONFIDENTIAL




       NSF OIG INVESTIGATION
                         REPORT

                       OIG Case Number M980 10002


                                   March 29, 1999




This document is lent to you FOR OFFICIAL USE ONLY. It remains the property of the Office of
Inspector General. It may not be reproduced. It may be disclosed outside NSF only by the Inspector
     General, pursuant to the Freedom of Information and Privacy Acts, 5 U.S.C. $5 552,552a.
                        REPORT OF INVESTIGATION INTO ALLEGATIONS OF
                          MISCONDUCT IN SCIENCE AND ENGINEERING

                                                        SUMMARY

            The Office of Inspector General (OIG) has determined t h a t d ' ~ ( t h e
    subject), a faculty member at the (               t            h            e University), plagiarized
    extensively from an NSF award into two separate proposals he submitted to NSF without
    distinguishing1 the text or providing authorship credit. 'Ibis conclusion is based on the University's
    investigation report, which we believe is fair, accurate, and complete. We recommend that NSF
    find that the subject committed misconduct in science and that NSF's Deputy Director send the
    subject a letter of reprimand informing him that NSF endorses the University's Investigation Report
    and &rrning a finding of misconduct in science against him. In view of the University's actions in
    this case, OIG believes that no firher action is necessary to protect NSF's interests.

                                                        FINDINGS                                           i

           On 22 January 1998 we received an allegationthat the-subect, a tenured full professor in the
University's Department of Biology (the D e p a r t m e n t ) d plagiarized material from NSF
award                    (the source document) into two se arate NSF proposals he submitted to
NSF, -(hte                  fm proposal) and                       (the second proposal): copies of the
source proposal and the first and second proposals are attached at Tabs A, B, and C, respective1
with the identical text underlined in red (the bodies of the first and second proposals are identical).Y9

       We conducted an inquiry, which included interviewing the author of the source document                                 I



by telephone. Because of the extent of the apparent plagiarism and because the subject's first
proposal had been recommended for funding, we decided to interview the subject in person.6                                    I

                                                                                                                              i
'     Throughout this report, the term "distinguishing" or "distinction," is used to indicate a method, such as font,
      indentation, or quotation marks, that is used so that the reader can differentiate between material copied from
      another source and original material in the document being read.
      NSF award                   ent
     I--"            was submitted by
      award was for-


                                       upport of the project.


      the project.
      The only differences between the subject's proposals and the source document include 1) a "Special Considerations"
      section (about a page in length) that was unique to the subject's second proposal, 2) the country and river (and
      associated surrounding geographical locations) where the study was to be performed, 3) the d3tes representing the
      timing of the steps to complete the project and student training, and 4) the addition of the geographic positioning
      system (GPS) in the subject's proposals (to more accurately locate sample localities).
6
      The evidence available at the time indicated that the subject likely had submitted two proposals to NSF which
      were almost entirely plagiarized. On the cover sheet of each proposal the subject certified that "the text and
      graphics herein . . . are the original work of the signatories. . . . I understand that the willhl provision of false
 Copies of a summary of our interview with the author of the source document, the affidavit signed
 by the subject, the form disclosure of rights signed by the subject, and our notes of the meeting with
 the subject, are attached at Tab D. We found that the subject apparently copied more than 90
 percent of the text in both proposals, including 47 references, fiom the source document. None of
 the apparently copied text was attributed to the source document or distinguished fiom the other
 contents of either proposal to show that the identical text was derived fro& it. W e determined that
 the allegation had substance.

        As we are required to do by the Inspector General Act, we referred the matter to the
appropriate component of the Department of Justice, which declined to pursue civil or criminal
prosecution.7 Pursuant to NSF's regulation on Misconduct in Science and Engineering, we then
contacted the University, which requested we defer the allegation to it for investigation.' On
23 April 1998 we provided the results of our inquiry to the University and agreed to delay our
investigation to give it an opportunity to conduct its own investigation; our deferral letter is attached
at Tab E. Concomitantly, we recommended that NSF take interim administrative action to defer
action on the subject's proposal that had been recommended for h d i n g , pending resolution of
the allegations of misconduct in science, which NSF did; copies of these memos are attached at
Tab F . ~

        On 23 November 1998 we a received a letter from the Dean of the University's College of
Graduate Studies and Assistant Vice President for Research, transmitting to us the results of the
University's investigation; this letter is attached at Tab G, along with the University's investigation
report (the Report) and the transcript of the subject's interview. The subject's response to the
Report (the Response) is attached at Tab H, and the letter fiom the Provost and Vice President for
Academic Affairs to the subject informing him of the disciplinary actions being taken against him
(the Provost's Letter) is attached at Tab I. The University found that the author was not a
collaborator on the subject's proposals, and that the overlapping text originally appearing in the
source document was not shared intellectual property. The Report stated that no evidence could
be found that the "overlap between [the source document] and [the subject's] two proposals
rwas] within the accepted standards of practice of science"'0-



     information . . . to NSF is a criminal offense (U.S. Code, Title 18, Section 1001)." (See Tabs B & C.) The
     submission of plagiarized proposals can also constitute violations of the civil False Claims Act. (31 U.S.C.
     $$ 3729-33.) Thus, the subject's alleged act of plagiarism, besides violating NSF's administrative regulation on
     misconduct in science, could have warranted civil andlor criminal legal action. Although NSF's regulation calls
     for deferring most investigations of alleged misconduct to universities, civil and criminal investigations are
     conducted by OIG, in concert with the ~ e ~ a r t m e noft Justice. Accordingly, we interviewed the subject
     personally to enable us to appropriately refer the matter to the Department of Justice and obtain guidance on how
     the case should be pursued.
     5 U.S.C. app. 3 $ 4(d).
     See 45 C.F.R. § 689.4(d).                                                                       .
     See 45 C.F.R. $689.7.
'O   The Report (Tab G) at page 5.
           The sheer quantity of words, ideas and descriptions in the [subject] proposals that
           are identical to those in the [source document] is overwhelming. There are no
           quotation marks or citations to indicate that another scientist wrote the majority of
           the text. [The subject], in answering why he omitted quotation marks, responded
           that he could give no reason other than he thought he had [the author's]
           permission to do so, in the form of verbal and e-mail communication with [the
           author]. [The subject] also indicated that he would use quotation marks if he used
           a citation without an author's approval. [The subject] said that he believes he
           should have cited [the author] in the proposal, but does not believe that he must
           use quotation marks (or indentation or other equivalent) to indicate the verbatim
           material.  ''
 The University found that the subject's use of the verbatim material in his two proposals
 constituted plagi'arism, and that the subject acted recklessly. After reviewing the subject's
 publications and proposals, the University concluded that the subject's plagiarism was an
 isolated incident.

        The Provost's Letter describes the following actions taken by the University against the
subject: issued a letter of reprimand, required the withdrawal of his pending NSF proposal,
prohibited him fiom submitting Federal or state proposals and fiom serving as a PI on Federal or
state awards for 3 years, required him to certifL to the originality of any external proposals for an
additional 2 years, and required him to read materials and attend workshops/meetings on the topic
of integrity in research. In addition, if the subject shares information about this case with others
he is required to disclose the full extent of his plagiarism and to identify the original author of the
proposal.'2 The first proposal, which NSF had suspended, was subsequently withdrawn by the
University on 17 November 1998.


                                         THE SUBJECT'S DEFENSE

           In the ~ e s ~ o n s ethe
                                   , ' subject
                                       ~       provided eleven points purporting to identify

          ways in which the . . . Report presents errors of fact, misleading andlor not fully
          documented statements about the testimony of [the subject] and others, and
          conclusions which unfairly characterize the qualiv of the research proposed by
          [the subject], regardless of identical language . . . .1

It
     The Report (Tab G) at page 5.
l2   The Provost's Letter (Tab I) at page 3.
I3
     The subject and the subject's faculty advocate provided written responses on several occasions in the course of
     the University's inquiry and investigation. Because these responses are substantively duplicative and because
     the Report provides all of the University's discussion of the evidence and conclusions, we have attached only the
     subject's response to the Report.
l4   The Response (Tab H) at page 1.
                                                          3
 We will address each of the subject's concerns in turn:

           1.      NSF OIG Interview: The subject complained that OIG threatened him, to
 prevent him from having a University representative present when he was interviewed. To the
 contrary, following our standard procedures, we explained to the subject exactly why we were
 visiting him at the beginning of the meeting, providing him with a written statement about his
 rights and emphasizing that talking to us was entirely voluntary; a copy of that statement, signed
 by the subject, is attached at Tab D. We said .that we would wait if he wanted to contact
 someone, such as University counsel, but he elected not to do so. He was l l l y involved in the
 drafting of his &davit, which was prepared on his own computer word processor and produced
 on his printer.

        2.         The Universitv Declined Negotiated Resolution: In the course of the
University's inquiry and investigation, the subject and his faculty advocate offered to negotiate a
settlement, which the University declined to do. The University is under no obligation, under
NSFYsmisconduct regulation or any principles of fairness, to negotiate a settlement in the course
of an investigation.

        3. & 4. The Subiect Did N& Claim the Author Was Collaborator On Proposals: The
subject's denial of having raised a defense that the University did not accept is irrelevant--exceptas
an admission that indeed the author was not a collaboratoron the two proposals.

        5.        The Universitv Did Not Share Complete Testimony of Witnesses: The subject
argues that without seeing the full testimony of witnesses (besides what was quoted in the Report),
he was unable to produce a fair defense. However, the salient facts in this case are incontrovertible,
and depend not at all on the testimony of anyone other than the subject.

        6.        University Misunderstood Subject's Claim Of "Shared Intellectual Property":
The subject asserted that he had a "substantial and close collaboration" with the author that
produced a "frame of mind . . . that he believed" gave him "implicit approval from [the author]
to utilize [the source document] that [the author] voluntarily shared in whatever manner he
chose. . .   ,715
               The subject referred to an e-mail he received from the author that "acknowledges"
the subject's request for a copy of the source document and commits the author to send a copy of
the source document to the subject. l6 See Tab J.

        The e-mail from the subject to the author &ked for "a peak at" the source document,
stating that he would "like to see the narrative if a copy can be made available."" Nothing in the
request or the response suggests that the author and the subject were collaborating on the

l5
I6
     The Response (Tab H) at page 3.
     The Response (Tab H) at page 4.
                                                                                             .
17
     E-mail from the subject to the author dated 12 December 1996 at 11:40:55 EST; e-mail from the author to the
     subject dated 12 December 1996 at 13 :49:28 EST.
                                                        4
     subject's proposed project, or that the subject sought or the author gave the subject permission to
     copy the text from the source document.

         7.       The Subject's Standards: The subject argued that the Committee's conclusion
 that "quotation marks (or equivalent) are required by accepted standards of writing in any field"
 falsely suggested that the subject had "not followed his own standard for use of quotation
  mark^."'^ The subject's argument underscores the fact that his personal standard is far from the
 norm; it in no way contradicts the Committee's conclusion that the subject's actions seriously
 deviated from accepted standards.

          8.          Differences Between Proposals And Source Document: The subject "insisted"
 that there are "substarztial" differences between the source document and his proposals.1g
 However, the differences noted by the subject-which are plainly observable in the copies of the
 proposals attached at Tabs A, B, and C---are in fact insignificant: the subject copied almost
 verbatim the research project summary, the introduction and background section, the detailed
 description of the proposed study area, the objectives, work plan, and methods sections, the
 discussion on the expected significance of the project, and the description of the training planned
 for students into his two proposals. In addition, the subject copied the introductory paragraph for
 the "Biographical Sketches" section into his first proposal. The few changes the subject made
 did little else than change the location of the study area.

       9.        The Author's Knowledge of the Subiect's Use Of the Source Document: This
was addressed above concerning the subject's 6" point

       10. & 11. The Subiect's State of Mind: The subject complains about the University's
conclusion that he acted recklessly, but in the next section of this report we draw the same
conclusion about his state of mind.


                      CONCLUSION REGARDING MISCONDUCT IN SCIENCE

        We believe the Report is fair, accurate, and complete. The subject's response to the Report
does not undermine the University's findings or conclusions. We therefore recommend that NSF
adopt the Report's factual

       NSF's regulation on Misconduct in Science and Engineering defines misconduct in part as a
"serious deviation from accepted practices in proposing" re~earch.~'The regulation specifically
mentions three examples of misconduct, and one of these is plagiarism.

''    The Response (Tab H) at page 3.
l9    The Response (Tab H) at page 4 (emphasis in original).
20    45 C.F.R. 5 689.8(a).
*'    45 C.F.R. 5 689.1(a)(I).
                                                          5
             For NSF to make a finding of plagiarism, the preponderance of the evidence must show
     that the subject committed the act (copying without authorship or distinction) with a culpable
     state of mind (such as knowing or grossly negligent).= There is ample proof that the subject
     submitted two proposals to NSF that were almost entirely copied fiom the source document. The
     subject admitted that he copied the material without authorship or distinction. The essence of his
     defense is that what he did was acceptable because he believes it to be.

              We believe the subject acted culpably when he copied text from the source document
     without providing authorship or attribution. Certain acts compel the inference that they were done
     knowingly. An honor society of scientists,SigmaXi, The Scientific Research Society, described the
     state of mind associated with acts of verbatim plagiarism:

             At one end there is a word-for-word copying of another's writing without enclosing
             the copied passage in quotation marks and identifying it in a footnote, both of which
             are necessary ....It hardly seems possible that anyone of college age or more could
             do that without clear intent to deceive.23

 Verbatim copying is inherently a knowing activity. In the course of the University's investigation,
 the subject claimed that, because he had a "substantial and close collaboration" with the author,

            his fiame of mind was that he believed he had implicit approval from [the author] to
            utilize the [source document] that [the author] voluntarily shared in whatever
            manner he chose due to this close working relationship, close agreement on research
            methods, and the desirability of complementingeach other's work.24

The subject's position--that a collaborator who gives you a copy of his work gives you implicit
permission to represent that work as your own-reflects a remarkable incomprehensionof accepted
scholarlypractice. On the other hand, the subject

            acknowledges in hindsight. : . a lapse in professional judgment by failing to provide
            an explicit acknowledgement of [the authorl's words in the body of the proposals.25

We.would be more sanguine if this post hoc assertion by the subject were not accompanied by
simultaneous insistence that his conduct was without fault. In our view, the preponderance of the
evidence supports the University's conclusion that the subject's extensive plagiarism, committed


       45 C.F.R.5 689.2(d).
23
       Sigma Xi, The Scientific Research Society, Honor in Science 15 (1984) (quoting Definition of Plagiarism, in
       Wesleyan University, Middletown, CT, The Blue Book Documents oflnterest to Members of Teaching Stafand
                                                                                               .
       the Student Body 59-60 (1984-85), and noting as the original source Harold C. Martin et al., The Logic and
       Rhetoric offiposition (3d ed. 1969)).
24
       The Response (Tab H) at page 3.
*'     The Response (Tab H) at page 5.
                                                          6
     with at the very least a reckless disregard for the ethical standards of the scientific c o r n r n ~ n i t ~ ~ ~
     constituted a serious deviation fiom accepted practices and therefore misconduct in science. We
     recommend that NSF endorse the University's conclusion.                                                 )




             In deciding what actions are appropriate when misconduct is found, NSF should consider
     the seriousness of the misconduct and any evidence of a                We agree with the University
     that the subject's plagiarism of virtually an entire research proposal is extremely serious. The
     University considered the subject's plagiarism in two proposals to be a single act because the
     subject acknowledgedthe submission of the first proposal in the "Special Considerations"section of
     the second proposal so that his act of using verbatim text was one act of plagiarism, "whose product
     appeared in two places.'"8 Given that the two proposals were virtually identical, submitted within 2
     months of each other to obtain support for different aspects of work for the same project, and under
     considerationfor funding at the same time, the University's conclusion is reasonable.

         The University took balanced and significant action in response to the subject's
 misconduct. As a result, we believe NSF's interests will be served sufficiently by endorsing the
 University's Report, affirming that the subject committed misconduct in science, and sending
 him a letter of reprimand.29

       THE SUBJECT CHOSE NOT TO RESPOND T O THE INVESTIGATION REPORT

         We wrote to the subject on 10 February 1999 providing him with a draft of the
investigation report. We explained that, although he was not obligated to provide comments or
rebuttal, if he wished to do so, we asked to receive his response on or before 12 March 1999. We
explained that comments or rebuttal received on or before March 12, 1999 would receive fidl
consideration and may lead to revision of the report or of the recommended disposition
(45 C.F.R. 9 689.1 (d). Because we had received no response by 17 March 1999, we called the
subject to ask if he planned to respond. He informed us that, since he had nothing further to add
to the report, he chose not to respond. The above report remains unchanged fiom the draft report
reviewed by the subject.




26
       Whether the subject acted recklessly or knowingly has no effect on the conclusion and actions taken in this case

*'
       because reckless behavior is sufficient for a finding of misconduct in science.
       45 C.F.R. § 689.2(b).
                                                                                                -
28
       The Report (Tab G) at page 10, answer to question 10(a).
29
       This is a Group I action (see 5 689.2(a)(i)).
                                                            7
